U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division




                       Review of ATF’s Actions in 

                      Revoking the Federal Firearms 

                        License of Guns & Ammo 

                                      September 2013




                                       I-2013-008 

                              EXECUTIVE SUMMARY 



      In response to a congressional request, the Office of the Inspector
General (OIG) examined whether the Bureau of Alcohol, Tobacco,
Firearms and Explosives (ATF) followed its administrative action policy
throughout the revocation process in a case involving a Federal Firearm
Licensee (FFL), Ralph Weaver doing business as Guns & Ammo.1

      ATF’s administrative action policy in effect at the time of the
Guns & Ammo case, the Federal Firearms Administrative Action Policy
and Procedures (ATF Order 5370.1A, October 30, 2009), provided that an
FFL’s license could be revoked if the FFL had a history of similar,
repeated violations. ATF inspected Guns & Ammo in November 2009
and found firearms violations that could have warranted a proposal of
revocation pursuant to ATF policy.2

       In his inspection report, however, the ATF Industry Operations
Investigator (IOI) recommended an alternative to revocation that included
a warning conference and future recall inspection. The IOI noted, among
other things, that this was the licensee’s first ATF inspection since April
1998, that the licensee’s understanding of the Gun Control Act of 1968
was wrong, and that a complete and detailed closing was conducted with
the licensee instructing him on how to bring his firearm business up to
date and in full compliance with the Gun Control Act.3

      After reviewing the IOI’s inspection report, an Area Supervisor and
the Acting Director of Industry Operations (DIO) for the New Orleans
Field Division concurred with the IOI’s recommendation. On
January 11, 2010, ATF held a warning conference with the FFL, and on
January 21, 2010, ATF sent the FFL a follow-up letter regarding the
warning conference. The letter summarized the violations and corrective
action discussed at the warning conference and informed the FFL that
further ATF inspections should be expected.

       1 We did not examine the merits of the revocation, which was the subject of
pending litigation.

       2   The violations included transferring firearms for law enforcement agencies to
individuals employed by law enforcement agencies without proper documentation;
transferring handguns to individuals who resided in a state other than the state where
the licensee’s business is located; failing to properly record the disposition of firearms;
and failing to contact the National Instant Criminal Background Check System (NICS)
prior to transferring a firearm to a non-licensee.

       3   The Gun Control Act of 1968 was codified at 18 U.S.C. 44.

U.S. Department of Justice                                                                    i
Office of the Inspector General
Evaluation and Inspections Division
      However, in February 2010, a second Acting DIO (who had just
replaced the first Acting DIO) informed the Area Supervisor that she had
reopened the case because the alternative to revocation had not been
reviewed and approved by ATF’s headquarters as required by ATF policy
and because of her concern about the quantity of missing guns identified
in the IOI’s inspection report.4 The second Acting DIO determined that
revocation was appropriate and made the recommendation to ATF
headquarters. In making this recommendation, the second Acting DIO
did not inform ATF headquarters that the first Acting DIO had decided,
on the exact same set of facts, that an alternative to revocation was
appropriate and that the New Orleans Field Division had already
implemented the decision by holding a warning conference with the FFL.

       The revocation recommendation was approved by ATF
headquarters, but the New Orleans Field Division was instructed that
upon receipt of the Hearing Officer’s report, they were to confer with the
sitting Deputy Assistant Director for Field Operations at ATF
headquarters about possible alternative actions to revocation. On
March 10, 2010, ATF sent the FFL an initial notice of revocation, and the
FFL appealed the decision.

      On July 28, 2010, the ATF Hearing Officer conducted a revocation
hearing and submitted his report on August 23, 2010. Although the
Hearing Officer concluded that ATF proved three of the four allegations in
the notice of revocation, including willfulness of violations, he
recommended that ATF not revoke the FFL’s license. In his report, the
Hearing Officer noted that the FFL’s attorney had submitted information
regarding other ATF administrative cases with egregious violations in
which FFLs were given second chances by ATF and that Guns & Ammo
was willing to do whatever it took to prevent future violations, including
having entered into an agreement for the development and
implementation of a compliance plan.

       Despite this recommendation, on October 26, 2010, a third DIO in
the New Orleans Field Division issued a final notice of revocation. We
found no evidence that the third DIO complied with the prior instruction
from ATF headquarters that the field division consider alternatives to
revocation after receipt of the Hearing Officer’s recommendation. We also
were unable to determine why the third DIO rejected the Hearing
Officer’s recommendation and proceeded with revocation.

       4  The IOI’s inspection report in December 2009 noted that 210 firearms were
missing from the FFL’s inventory. Subsequent to the November 2009 inspection, the
licensee presented documents indicating it found 115 out of the 210 missing firearms,
leaving 95 still unaccounted for.

U.S. Department of Justice                                                              ii
Office of the Inspector General
Evaluation and Inspections Division
       We concluded that the New Orleans Field Division did not comply
with ATF’s administrative action policy in the Guns & Ammo case and
did not follow instructions it received from ATF headquarters. As a
result, ATF supervisors imposed substantially different discipline on the
FFL based on an identical set of facts. As an initial matter, we found
that the first Acting DIO did not comply with ATF’s policy by failing to
seek ATF headquarters’ review and approval of his decision to proceed
with an alternative to revocation. We also found that, after holding the
warning conference, the field division did not schedule a recall inspection
of Guns & Ammo, as its 2009 policy required. We further determined
that the second Acting DIO, in obtaining the approval of ATF
headquarters for her revocation recommendation, failed to inform
headquarters of the fact that the prior Acting DIO had determined that
an alternative to revocation was the appropriate outcome and that the
field division had already held a warning conference with the FFL.
Finally, we concluded that the third DIO, after receiving the Hearing
Officer’s recommendation against revocation, failed to follow an earlier
instruction from headquarters that the field division consider alternatives
to revocation upon receipt of the Hearing Officer’s report.

       We also found that this case highlighted the problems that can
result from the delays in ATF’s inspection process, which we addressed
in a recent report.5 One of the main reasons cited by the IOI and relied
upon by the first Acting DIO in deciding to impose an alternative to
revocation was the fact the FFL had not been inspected in over 11 years.
We also were concerned that, as a result of the varying issues we
identified in the handling of this case, ATF was required to expend
considerable resources adjudicating this matter, thereby diverting
inspection staff from its other priorities. Finally, we were troubled by the
burden placed on Guns & Ammo in having to address duplicative
administrative decisions during a single administrative action.

       To avoid the issues identified in our review, we made five
recommendations to ATF to ensure that it provides greater oversight and
training regarding administrative action cases.




       5 The OIG report, Review of ATF’s Federal Firearms Licensee Inspection Program,
I-2013-005 (April 2013), reported that ATF was understaffed and unable to meet its goal
of conducting cyclical compliance inspections of FFLs.

U.S. Department of Justice                                                           iii
Office of the Inspector General
Evaluation and Inspections Division
                                   TABLE OF CONTENTS 




INTRODUCTION ................................................................................. 1
 

   ATF Administrative Action Policy .................................................... 1
 

   Chronology of the Guns & Ammo Case ........................................... 2
 

   Scope and Methodology .................................................................. 6
 

RESULTS OF THE REVIEW ................................................................ 7
 

   The initial Acting DIO in the New Orleans Field Division did not 

   follow the administrative action policy in effect at the time. ............. 7
 

   We found no evidence that a recall inspection was scheduled 

   following the warning conference as ATF policy required. ................ 8
 

   The Guns & Ammo case was reopened by a different Acting DIO 

   1 month after the warning conference was held. ............................. 9
 

   The second Acting DIO failed to inform ATF headquarters that a 

   warning conference had already been held with the FFL. .............. 10
 

   Deficiencies were found with ATF headquarters review of the 

   Guns & Ammo case. ..................................................................... 11
 

   It is unclear whether ATF followed the Acting DAD for Field 

   Operations’ instructions after receiving the Hearing Officer’s 

   report. .......................................................................................... 13
 

CONCLUSIONS AND RECOMMENDATIONS ..................................... 16
 

APPENDIX I: SIR REPORT SENT BY THE SECOND ACTING DIO 

    TO ATF HEADQUARTERS ON MARCH 3, 2010 ........................ 19
 

APPENDIX II: ATF RESPONSE TO DRAFT REPORT ......................... 20
 

APPENDIX III: OIG ANALYSIS OF ATF RESPONSE .......................... 22
 




U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
                                 INTRODUCTION 



      In response to a congressional request, the Office of the Inspector
General (OIG) examined whether the Bureau of Alcohol, Tobacco,
Firearms and Explosives (ATF) followed its administrative action policy
throughout the revocation process in a case involving a Mississippi-
based Federal Firearm Licensee (FFL).

ATF Administrative Action Policy

      ATF enforces federal firearms laws, in part, by issuing firearms
licenses and overseeing a program that conducts regulatory inspections
of FFLs to ensure that only qualified individuals receive licenses to sell
guns, to educate FFLs about federal firearms laws, and to increase
compliance with those laws to prevent the transfer of firearms to those
prohibited from having them. If ATF finds violations during a compliance
inspection of an FFL, it can issue a report of violations or, based on the
severity and frequency of the violations, recommend administrative
action.

       In October 2009, ATF revised its administrative action policy,
entitled Federal Firearms Administrative Action Policy and Procedures.6
The order implementing the 2009 revised policy superseded a 2007
adverse action policy and memorandum.7 ATF’s 2009 policy required
that some administrative actions against FFLs be resolved at the
headquarters level rather than at the field division level. It instructed
Directors of Industry Operations (DIO) in the field divisions to submit to
ATF headquarters Significant Information Reports (SIR) outlining
inspection findings and any proposed resolution prior to initiating any
actions against FFLs for revocation or denial, or an alternative to these
actions. The Deputy Assistant Director (DAD) for Field Operations at
ATF headquarters then reviewed the recommendations to determine
whether actions should proceed within the division or at headquarters,
the latter being required when the case was highly complex or sensitive,

       6  ATF Order 5370.1A, Federal Firearms Administrative Action Policy and
Procedures, October 30, 2009, Section 7c. In February 2013, ATF finalized ATF Order
5370.1B (February 8, 2013), which is a new version of the Federal Firearms
Administrative Action Policy and Procedures. However, we did not review or consider
the new policy since it was not the administrative action policy in effect during the
license revocation of Guns & Ammo.

       7 ATF changed the term “adverse actions” to “administrative actions” in the
2009 policy.


U.S. Department of Justice                                                              1
Office of the Inspector General
Evaluation and Inspections Division
or if the violations took place in several field divisions. The 2009 policy
expressly stated that the DIO was required to wait for the DAD’s
determination prior to proceeding with any actions. This 2009 policy
was a change from ATF’s 2007 memorandum, which advised ATF field
divisions that “current firearms and explosive policies generally do not
require headquarters approval for an alternate recommendation such as
a warning conference in lieu of revocation.”

      ATF’s 2009 policy also provided that while DIOs had discretion to
make recommendations for administrative actions that could proceed
within the division, the DAD at ATF headquarters still was required to
review and approve the recommendations and ensure that ATF’s
administrative action policy was applied consistently. ATF’s
administrative action policy further stated that a recall inspection was
required whenever a warning conference was held with an FFL.

Chronology of the Guns & Ammo Case

       Guns & Ammo, a Federal Firearms Licensee operated by Ralph
Weaver, received its first compliance inspection in September 1993 by an
Industry Operations Investigator (IOI) from ATF’s New Orleans Field
Division. This inspection resulted in a report of violations, and the IOI
recommended that ATF conduct annual inspections of Guns & Ammo
beginning in 1994. However, the next inspection did not occur until
April 1998, when an IOI returned for another inspection and similarly
issued a report of violations. Table 1 presents the Code of Federal
Regulations violations found by the IOIs in 1993, 1998, and in a
subsequent inspection in 2009.




U.S. Department of Justice                                                 2
Office of the Inspector General
Evaluation and Inspections Division
    Table 1: C.F.R. Violations Found During Compliance Inspections
                        in 1993, 1998, and 2009

   1993 INSPECTION                  1998 INSPECTION                    2009 INSPECTION

27 C.F.R. 178.124(c):            27 C.F.R. 178.124(c):              27 C.F.R. 478.124(a):*

ATF Form 4473 errors and         ATF Form 4473 errors and           Failure to obtain properly
omissions.                       omissions.                         completed ATF Form 4473s
                                                                    prior to transfer of firearms to
                                                                    non-licensed person.

27 C.F.R. 178.99(b):                                                27 C.F.R. 478.99(a):

Sold rifle to underage person.                                      Prohibited firearms transfer.

22 C.F.R. 178.100:

Sold firearms at gun shows
other than Mississippi.

                                 27 C.F.R. 178.125(e):              27 C.F.R. 478.125(e):

                                 Discrepancies between record       Failure to properly maintain
                                 and physical inventory.            Acquisition & Disposition book.

                                 27 C.F.R. 178.126(a):

                                 Unreported multiple handgun
                                 sales.

                                 27 C.F.R. 178.132:

                                 Sale of a post-ban 100 round
                                 magazine.

                                                                    27 C.F.R. 478.102(a):

                                                                    Failure to conduct background
                                                                    check prior to the transfer of
                                                                    firearms to non-licensed
                                                                    person.
 * Part 178, Commerce in Firearms and Ammunition, became Part 478 when the Code of Federal
 Regulations was reorganized to reflect ATF’s transfer from the Department of the Treasury to the
 Department of Justice under the Homeland Security Act of 2002. (See
 https://www.federalregister.gov/articles/2003/01/24/03-1657/reorganization-of-title-27-code-
 of-federal-regulations.)
 Source: ATF Inspection Reports from 1993, 1998, and 2009.


       The IOI’s reports in both the 1993 and 1998 inspections did not
 recommend further action and noted that the “records are in generally
 good shape.” Additionally, in the 1998 inspection, the IOI’s report stated
 that with the exception of one improper sale, the violations found were
 “routine, especially considering the licensee’s volume of business.” After
 Hurricane Katrina, ATF contacted Mr. Weaver by telephone in September
 U.S. Department of Justice                                                                         3
 Office of the Inspector General
 Evaluation and Inspections Division
2005 to inquire about the business status of Guns & Ammo, and Mr.
Weaver told ATF that he had his full inventory and had not lost any
records.8

       ATF conducted its next compliance inspection in November 2009,
more than 11 years after the previous inspection.9 This inspection
occurred after the implementation of the revised administrative action
policy in October 2009 described above. As shown in Table 1 above, the
IOI found violations and issued a report of violations on December 1,
2009. According to the IOI’s 2009 inspection report, the FFL had the
following violations:

       	   In 7 instances, the licensee transferred firearms for law enforcement
            agencies to individuals employed by law enforcement agencies
            without proper letters from the department or completing ATF
            Form 4473.
       	   In 6 instances, the licensee transferred handguns to individuals who
            resided in a state other than the state where the licensee’s business
            is located.
       	   The licensee failed to properly record the disposition of 210 firearms
            and the firearms were reported missing as a result of the
            inspection.10
       	   In 11 instances, the licensee failed to contact NICS [National Instant
            Criminal Background Check System] prior to transferring a firearm to
            a non-licensee.11 In 10 of those instances, the licensee transferred
            firearms to police officers without obtaining a certification letter.



       8 ATF’s Katrina Outreach Program in 2005 instructed staff to contact every FFL
that might have been affected by Hurricane Katrina and inquire as to the FFL’s
business status.

       9  The Office of the Inspector General recently issued a report finding that ATF
failed to meet its goal of conducting cyclical compliance inspections of FFLs within
5 years in over 58 percent of cases between fiscal year (FY) 2007 and FY 2012. See
U.S. Department of Justice Office of the Inspector General, Review of ATF’s Federal
Firearms Licensee Inspections Program, Evaluation and Inspections Report I-2013-005
(April 2013).

       10 In the ATF Hearing Officer report, dated August 23, 2010, the Hearing Officer
noted that subsequent to a firearms license revocation hearing, the licensee presented
documents indicating it found 115 out of the 210 missing firearms, leaving 95 still
unaccounted for.

       11 The Brady Handgun Violence Prevention Act of 1993 requires FFLs to contact
the Federal Bureau of Investigation (FBI) or a state agency (if applicable) to request that
NICS be queried to confirm that potential customers are not prohibited from purchasing
firearms. See 18 U.S.C. § 922(s).


U.S. Department of Justice                                                                4
Office of the Inspector General
Evaluation and Inspections Division
       While these violations could have warranted a proposal for
revocation under ATF policy, on December 2, 2009, the IOI prepared a
memorandum for the Area Supervisor and the DIO that recommended an
alternative to license revocation. Specifically, the IOI recommended a
warning conference with the FFL to be followed by a recall inspection.
The IOI’s justification for an alternative to revocation was predicated on
the following six reasons:

       	   The licensee’s understanding of the Gun Control Act was wrong in
            that he thought active duty military personnel were residents of the
            state of Mississippi if they were stationed in Mississippi for at least
            90 days.
       	   The licensee was a Glock Law Enforcement dealer and had sold
            several firearms over the years to law enforcement officers employed
            by the Mississippi Forestry Commission. The Licensee mistakenly
            accepted a Mississippi Forestry Commission Fireman’s letter as a law
            enforcement letter.
       	   The licensee accepted responsibility for allowing part time employees
            to record dispositions in the Acquisition and Disposition books, but
            felt he was not missing any firearms and only receipts and paperwork
            of firearms transferred to law enforcement departments and others.
            The licensee stated his business was not flooded by Hurricane
            Katrina and none of his records were lost or destroyed, but his
            building was heavily damaged which resulted with his records being
            boxed up and stored for safety while his building was repaired. The
            licensee stated his records were not fully back in working order.
       	   This was the first inspection of the licensee since an April 3, 1998
            inspection. The 1998 inspection resulted in four violations being
            cited; and a recommendation of no further field action.
       	   A very complete and detailed closing was conducted with the licensee
            as well as instructions all during the inspection to bring the
            Licensee’s firearm business up to date and in full compliance with
            the Gun Control Act.
       	   A warning conference could serve as proof of willfulness should any
            repeat violations be found during the recall or any other future
            inspections.

      Documents show that on January 4, 2010, the initial Acting DIO of
the New Orleans Field Division concurred with the Area Supervisor and
the IOI that a warning conference and subsequent recall inspection were
appropriate rather than revocation. On January 11, 2010, ATF held a
warning conference with the FFL and, on January 21, 2010, ATF sent
the FFL a follow-up letter regarding the warning conference. The letter
summarized the violations and corrective action discussed at the
warning conference and informed the FFL that further ATF inspections
should be expected. The corrective actions recommended by ATF related
to conducting proper inventories and maintaining accurate

U.S. Department of Justice                                                            5
Office of the Inspector General
Evaluation and Inspections Division
recordkeeping. The letter also warned the FFL that future violations
could be viewed as willful and might result in license revocation. The
initial Acting DIO was transferred to ATF Headquarters and became
Acting DAD for Field Operations (FO) in March 2010.

      In March 2010, the second Acting DIO for the New Orleans Field
Division (who had replaced the initial Acting DIO), reviewed the Guns &
Ammo case and sent a recommendation for revocation to the Acting DAD
for FO (the former initial Acting DIO from the New Orleans Field
Division). Despite his prior recommendation for alternative action, the
Acting DAD for FO concurred with the second Acting DIO’s
recommendation for revocation. As a result, on March 10, 2010, the
second Acting DIO issued the FFL an initial notice of license revocation,
and Guns & Ammo appealed the revocation shortly thereafter.

      On July 28, 2010, an ATF Hearing Officer conducted a revocation
hearing. On August 23, 2010, the Hearing Officer issued a report
recommending that ATF not revoke Guns & Ammo’s FFL license.
However, a new DIO for the New Orleans Field Division, who had
assumed that position in April 2010, disagreed with the Hearing Officer’s
recommendation and sent Guns & Ammo a final notice of revocation
dated October 26, 2010.12 Thereafter, Guns & Ammo sought judicial
review of ATF’s actions.13

Scope and Methodology

      For this review, we examined ATF policies regarding federal
firearms license revocations, the inspection history for Guns & Ammo,
and the administrative history of the case. We also examined e-mails
between ATF employees involved in this case from 2009 through 2010.
In addition, we conducted interviews with the Area Supervisor and the
three Directors of Industry Operations involved in the Guns & Ammo
license revocation.

       12ATF’s firearms license hearing policy provides DIOs with the discretion to
make the final decision on revocation after reviewing the Hearing Officer
recommendation. ATF Order 5374.1, Firearms License Hearings, May 21, 2007,
Section 9h.

       13  After that final notice of revocation, Guns & Ammo filed suit on December 16,
2010, in the U.S. District Court for the Southern District of Mississippi. The court
granted summary judgment for ATF on March 12, 2012, and on March 16, 2012, the
FFL appealed to the U.S. Court of Appeals for the Fifth Circuit. On August 22, 2012,
the Fifth Circuit affirmed the judgment for ATF. Guns & Ammo sought review in the
United States Supreme Court by petition for writ of certiorari filed January 28, 2013,
and the petition was denied on March 18, 2013.


U.S. Department of Justice                                                            6
Office of the Inspector General
Evaluation and Inspections Division
                          RESULTS OF THE REVIEW 



       The OIG found that ATF did not comply with its administrative
action policy regarding FFL administrative actions in the Guns & Ammo
case. First, the initial Acting DIO in the New Orleans Field Division did
not follow ATF’s administrative action policy in effect at the time, which
resulted in the New Orleans Field Division holding a warning conference
with Guns & Ammo without first obtaining approval from ATF
headquarters. Second, we found no evidence that ATF scheduled a recall
inspection for Guns & Ammo following the warning conference as the
policy required.

       We also determined that the second Acting DIO’s actions in
reopening the Guns & Ammo case and issuing an initial notice of
revocation, though not common practice, were within her discretion. In
addition, we found that a third DIO’s disagreement with the Hearing
Officer’s recommendation to not revoke the Guns & Ammo license, while
also not common, was within his discretion pursuant to ATF’s written
policy. We discuss our findings in more detail below.

The initial Acting DIO in the New Orleans Field Division did not
follow the administrative action policy in effect at the time.

       ATF’s 2009 administrative action policy required DIOs to submit to
ATF headquarters for review all recommendations for a warning
conference as an alternative to revocation. ATF’s policy explicitly stated
that the DIO “shall submit to the DAD a Significant Information Report
[SIR] containing a synopsis of findings and proposed resolution prior to
initiating any action for revocation or denial, or an alternative to these
actions, suspension or fine.” The initial Acting DIO told the OIG that he
had reviewed the Guns & Ammo inspection report and concurred with
the IOI’s and Area Supervisor’s proposal for an alternative to revocation
consisting of a warning conference, a warning letter, and a recall
inspection. However, the initial Acting DIO did not submit this
recommendation to ATF headquarters. He told us that he did not to do
so because he believed that recommendations for a warning conference
or a warning letter did not require headquarters review and could be
handled at the division level.

      The initial Acting DIO told the OIG that he was not aware that the
2009 policy had changed the review process. He told us he was aware
that the 2009 policy became effective in October 2009, but he said he did
not recall any significant policy changes from prior versions. He stated
that he continued to believe, over 3 years later, that only

U.S. Department of Justice                                               7
Office of the Inspector General
Evaluation and Inspections Division
recommendations for revocation are required to be submitted to
headquarters for review.14

       However, other supervisors in the New Orleans Field Division were
aware of the 2009 policy change. In a February 17, 2010, e-mail
exchange between the Area Supervisor and a senior operations officer,
the Area Supervisor said she was not aware that the initial Acting DIO
had failed to send the Guns & Ammo case to headquarters for review.
The Area Supervisor wrote, “I’ve already conducted the warning
conference on this . . . I had no idea he [the initial Acting DIO] had not
sent it to HQ.”15

We found no evidence that a recall inspection was scheduled
following the warning conference as ATF policy required.

       ATF’s 2009 administrative action policy required an Area
Supervisor to order a recall inspection after a warning conference was
undertaken with an FFL.16 The warning conference for Guns & Ammo
was held on January 11, 2010. Following the warning conference, ATF
sent a letter to Guns & Ammo stating, among other things: “You may
anticipate further inspections to ensure your compliance.” According to
the Area Supervisor, pursuant to ATF policy, she should have closed the
case in N-Spect and generated a later date for a recall inspection.17 She
told the OIG that she could not specifically recall whether she closed the
case, and said she could not remember if she scheduled a recall
inspection.18 As discussed below, while it appears based on our review of

       14  As noted previously, the 2007 policy did not require the DIOs to consult with
the DAD regarding alternative administrative actions such as a warning conference in
lieu of revocation. However, that was changed by the 2009 policy, which stated in
relevant part: “[T]he DIO shall submit to the DAD a SIR containing a synopsis of
findings and proposed resolution prior to initiating any action for revocation or denial,
or an alternative to these actions, suspension or fine.”

       15It is unclear how the Area Supervisor learned that the case was not sent to
ATF headquarters.

       16ATF Order 5370.1A, Federal Firearms Administrative Action Policy and
Procedures, October 30, 2009.

       17 N-Spect is a database system that ATF uses to track and manage firearms
and explosives inspections. The Area Supervisor told us that the New Orleans Field
Division used a system that allowed her to schedule recall inspections in N-Spect.

       18  ATF’s Industry Operations Handbook, ATF H 5030.2C, February 2008,
informs ATF employees that the appropriate fields in N-Spect must be completed as
part of the closing actions in an inspection.


U.S. Department of Justice                                                              8
Office of the Inspector General
Evaluation and Inspections Division
e-mails that the Guns & Ammo case was closed by the field division, we
found no evidence that a recall inspection was scheduled after the
Guns & Ammo warning conference, as the administrative action policy
required.

      The initial Acting DIO told us that recall inspections were handled
by the Area Supervisor and that “it is the Area Supervisor’s responsibility
to stage the recall in N-Spect.” Additionally, when we asked him if
anyone in the field division had scheduled a recall inspection for Guns &
Ammo, he replied, “I know nothing about that.”

       Based on the documentation ATF provided, we did not find any
evidence that a recall inspection was ever scheduled or conducted with
Guns & Ammo following the November 2009 compliance inspection or
prior to the final notice of revocation in October 2010.19

The Guns & Ammo case was reopened by a different Acting DIO
1 month after the warning conference was held.

       In February 2010, the second Acting DIO, who had just replaced
the initial Acting DIO for the New Orleans Field Division, reopened the
Guns & Ammo case and issued an initial notice of revocation. This
occurred 2 months after the initial Acting DIO had concurred, on
January 4, 2010, with the recommendation for an alternative remedy
and a warning conference was held on January 11, 2010. In an e-mail
dated February 12, 2010, the second Acting DIO acknowledged that the
case was closed and wrote that she was “re-opening” it based on the
nature of the violations cited within the inspection report. In a follow-up
e-mail to the Division Counsel and the Area Supervisor on February 18,
2010, the second Acting DIO further noted: “That we’ve already held a
warning conference with the FFL doesn’t preclude us from proceeding
with a revocation. This file was not run through the proper channels
(not either of your faults), but with 210 missing firearms, there’s no way I
can recommend an alternate in good conscience.” Although DIOs have
the discretion under ATF policy to upgrade or downgrade administrative
action recommendations for FFLs, ATF staff we interviewed for this
review told us that it was not ATF’s practice to reopen a case after a DIO
had recommended an administrative action, such as a warning
conference, and when that action had already been carried out.


       19 While the Area Supervisor did not schedule a recall inspection after the
warning conference, ATF could still have conducted a recall inspection 1 year after the
November 2009 compliance inspection, or sooner with the FFL’s permission, but it did
not do so. See 18 U.S.C. 923(g)(1)(A) and (B).


U.S. Department of Justice                                                                9
Office of the Inspector General
Evaluation and Inspections Division
       During our interview with the second Acting DIO, she said she
considered the Guns & Ammo case to still be open, despite the statement
in her February 12 e-mail, because she did not see any administrative
action recommendation listed in N-Spect. When we asked her what her
current field division, ATF’s Dallas Field Division, does when a warning
conference is held with an FFL, she told us that the division schedules a
recall inspection after the conference. Based on her response, we asked
her why she issued an initial notice of revocation rather than instruct the
New Orleans Field Division staff to schedule a recall inspection for
Guns & Ammo. She told us that the violations were serious enough to
warrant a revocation and that the initial Acting DIO had not received
headquarters approval for the alternative action, as ATF’s 2009 policy
required.20 She also told us that “it is not a normal practice” to reopen a
case that had been closed, but she said she was “aware of it being done
before.” However, she could not provide us with an example of such a
case, and ATF has not been able to provide us with any examples of
similar cases in N-Spect.

       A third DIO, who was one of the Area Supervisors in the
New Orleans Field Division when the warning conference was held in
January 2010, became the DIO for the New Orleans Field Division in
April 2010, following the second Acting DIO’s return to the Dallas Field
Division. He told us that it was “highly unusual” that the second Acting
DIO re-opened the case shortly after the warning conference was held
and that he had never done so in other cases. In an e-mail dated
February 17, 2010, to the Area Supervisor who handled the Guns &
Ammo matter, the third DIO (himself an Area Supervisor at the time)
advised the other Area Supervisor, “You need to call her [the second
Acting DIO] and let her know you held the warning conference as per
DIO [the initial Acting DIO]. . . and discuss it with her. . . . If you are
satisfied the licensee will be in compliance after your last conference,
then you should tell her that.”

The second Acting DIO failed to inform ATF headquarters that a
warning conference had already been held with the FFL.

      We found that the second Acting DIO sent an incomplete SIR to
ATF headquarters for review to support her revocation recommendation
for Guns & Ammo. The SIR that she sent to ATF headquarters on
March 3, 2010, failed to inform headquarters that a warning conference

       20  The second Acting DIO told us that nothing was entered into N-Spect to
suggest that a warning conference had been held. However, her February 18, 2010,
e-mail, referenced above, suggests that she knew at the time that a warning conference
had been held even if a record had not been entered into N-Spect.


U.S. Department of Justice                                                          10
Office of the Inspector General
Evaluation and Inspections Division
already had been held with Guns & Ammo.21 ATF Order 5370.1A
required DIOs, in addition to describing the FFL’s compliance history, to
submit a SIR to the DAD at ATF headquarters that contained a synopsis
of findings and proposed resolution. The sample SIR included in ATF’s
policy as a reference for the field showed that a SIR should contain the
compliance history and administrative actions, such as warning letters
and warning conferences, taken against a licensee. That did not happen
in this instance.

      Additionally, although Division Counsel knew that ATF already had
held a warning conference with the FFL, she failed to inform the
Associate Chief Counsel at ATF headquarters of this fact when the
Division Counsel e-mailed the Associate Chief Counsel on February 23,
2010, and requested review of the Guns & Ammo notice of revocation.
Moreover, the Division Counsel’s e-mail did not include the concerns
raised by the Area Supervisor in proceeding with a revocation.22 The
Associate Chief Counsel responded to the Division Counsel in an e-mail
on February 25, 2010, and said, “This looks good.”

Deficiencies were found with ATF headquarters review of the Guns &
Ammo case.

      The ATF policy review board, consisting of the DAD for FO at ATF
headquarters and the ATF Deputy Chief Counsel, reviews cases involving
an administrative action. The second Acting DIO sent the SIR on
Guns & Ammo to the DAD for FO for review in March 2010, as required
by the administrative action policy. At the time, the policy review board
included the Acting DAD for FO, who had recently served as the initial
Acting DIO for New Orleans.

      We found two deficiencies with the ATF headquarters review
process for the Guns & Ammo administrative action. First, we do not
believe that the initial Acting DIO involved in the Guns & Ammo 2009
inspection and who had agreed (without consulting with ATF
headquarters as required by ATF’s 2009 policy) that a warning

       21   See Appendix I for a copy of the SIR.

       22  In its response to our draft report, ATF told us that there were oral
conversations between the Division Counsel and the Associate Chief Counsel regarding
the earlier warning conference. In light of this representation, we are concerned that
there appears to have been no effort by ATF headquarters to inquire about the initial
Acting DIO’s failure to follow ATF policy. The initial Acting DIO told the OIG that no one
at ATF had informed him during this time period that authorizing the warning
conference in lieu of revocation, without ATF headquarters approval, violated ATF’s
administrative action policy.


U.S. Department of Justice                                                             11
Office of the Inspector General
Evaluation and Inspections Division
conference was an appropriate alternative to revocation, should have
participated in considering a request by the second Acting DIO for New
Orleans to reopen the decision that he had made just 2 months earlier.
In his new position as Acting DAD for FO, he agreed with the second
Acting DIO’s recommendation to move forward with a revocation
proceeding against Guns & Ammo. Yet, in an e-mail dated March 10,
2010, the Acting DAD for FO did not appear to be convinced that
revocation was the appropriate outcome and instructed the second
Acting DIO and an Area Supervisor, who eventually became the third
DIO in the New Orleans Field Division:

       Post revocation hearing, and upon receipt of the hearing officer’s results,
       please confer with the sitting DAD for possible alternate actions because
       data regarding out of state transfers, weren’t clear if any were to
       prohibited persons. Given the expiration of 11 years between
       inspections, there might be the slightest of possibility this licensee could
       be remediated into compliance.

       We asked the Acting DAD for FO why he changed his position on
the administrative action for Guns & Ammo from a warning conference
when he was the initial Acting DIO in January 2010 to revocation while
he was at ATF headquarters in March 2010. He told the OIG that he did
not make the connection from reviewing the SIR that the second Acting
DIO had submitted to him. He said he could not tell from the SIR that
the FFL was the same one whose conduct he had reviewed 2 months
earlier while serving as the initial Acting DIO for the New Orleans Field
Division. He said that had he made the connection, he may have decided
that his original decision supporting a warning conference was the
appropriate outcome.

       The second deficiency we found resulted from the failure of the SIR
that had been submitted by the second Acting DIO to reference the
warning conference that already had been held with the licensee. We
found that this failure may have had an impact on the decision made by
ATF headquarters to support the revocation recommendation. The initial
Acting DIO, while serving as the Acting DAD for FO, told us that if the
SIR had made “any mention of a warning conference, I might have put
the connection together” between the second Acting DIO’s SIR and his
prior involvement in the matter. Moreover, we believe that any reviewer
at headquarters would want to know when considering a proposed
revocation action that a different DIO had previously determined that an
alternative to revocation was appropriate and that the alternative action
had already been implemented.




U.S. Department of Justice                                                            12
Office of the Inspector General
Evaluation and Inspections Division
It is unclear whether ATF followed the Acting DAD for Field
Operations’ instructions after receiving the Hearing Officer’s report.

       As noted above, while the ATF policy review board supported the
second Acting DIO’s recommendation to proceed with revocation, the
Acting DAD for FO instructed the second Acting DIO and the third DIO
(at the time an Area Supervisor) that, upon receipt of the Hearing
Officer’s report, they were to confer with the sitting DAD for possible
alternative actions to revocation. Based on our review of the file, it is
unclear whether ATF considered or discussed alternative administrative
actions after the Hearing Officer’s report was received.

      The Guns & Ammo revocation hearing was held on July 28, 2010.
In an August 23, 2010 report to ATF, the Hearing Officer did not
recommend revocation. Specifically the Hearing Officer’s
recommendation stated:

       Analysis of the facts in this hearing shows that the Government proved
       three of the four allegations in the Notice of Revocation. The Government
       also proved willfulness of violations in those Allegations. In view of all of
       the factors presented during and after the hearing, I recommend that the
       Federal Firearms License of Ralph Paul Weaver, Jr., d/b/a Guns &
       Ammo, not be revoked.23

The Hearing Officer concluded in his report that:

       The Government presented witness testimony and evidence in various
       exhibits that prove Ralph Paul Weaver, Jr. d/b/a Guns & Ammo violated
       provisions of the Gun Control Act. No evidence was presented that ATF
       conducted a license application inspection of Guns & Ammo where the
       requirements for the conduct of a firearms business and the
       recordkeeping requirements are explained to the applicant. The record
       reflects that the licensee had two inspections previous to the last
       inspection in 2009, and that Mr. Weaver attended three licensee
       seminars. Given the background the licensee has knowledge of the laws
       and regulations for the conduct of business as a dealer in firearms. The
       Government’s Attorney entered into the record the standard of
       willfulness applicable in the Fifth Circuit. His failure to comply
       constitutes willfulness.

       The licensee’s attorney entered several Federal Court cases into the
       record to show legally and factually ATF’s actions in other revocation
       proceedings and how the courts have ruled with respect to willfulness.
       He noted several instances of more egregious violations than the instant
       case where a licensee was given a second chance. He presented a case in

       23 ATF Hearing Officer, memorandum to Director of Industry Operations, New
Orleans Field Division, Report of Hearing on the Notice of Revocation of License Ralph
Paul Weaver, Jr. d/b/a Guns & Ammo, August 23, 2010.


U.S. Department of Justice                                                             13
Office of the Inspector General
Evaluation and Inspections Division
       which a firearms license was not revoked until after four inspections with
       increasing violations and two warning conferences. He presented cases
       where the court held that although violations occurred, there was
       conscious efforts to comply therefore the violations were not willful. The
       licensee has entered into an agreement with his Attorney’s company, FFL
       Guard, for the development and implementation of a compliance plan for
       Guns & Ammo going forward. The licensee stated that he is willing to do
       whatever it takes to prevent future violations and he would like to retain
       his firearms license.24

       Despite the recommendation made by the Hearing Officer, the
third DIO issued a final notice of revocation on October 26, 2010.25
When we asked the third DIO why he made the decision to revoke, he
told us that “the DIO has [the] discretion [to make the final decision], all
the Hearing Officer does is make a recommendation. The DIO reviews
the transcript and hearing tape and makes his own decision.”26 We
found no written documentation that explained why the third DIO
disagreed with the Hearing Officer’s recommendation. Given the detailed
recommendation provided by the Hearing Officer, we believe that when
ATF officials disagree with a Hearing Officer they should formally
document the reasons for their decision to reject the recommendation.

      When we asked the third DIO about his review of the case, he said
that he was “not initially given any background information on it” and
that he “looked at it independently and made [the] decision accordingly.”
However, the e-mails we reviewed showed that the third DIO had
knowledge of the Guns & Ammo case prior to his consideration of the
Hearing Officer’s decision. For example, in addition to the March 10,
2010, e-mail described above, other e-mails dating back to February
2010 showed that the third DIO was aware of the case and the concerns
in the New Orleans Field Division about revoking the Guns & Ammo
license. In particular, as mentioned earlier, on February 17, 2010, the
third DIO told the Area Supervisor, who had handled the case, that she
should inform the second Acting DIO that the initial Acting DIO had
approved the warning conference and that it had already been held with
the FFL.


       24   ATF Hearing Officer, memorandum to Director of Industry Operations.

       25Three DIOs, in addition to the Chief and Deputy Chief of the Field
Management Staff at ATF headquarters, told us that the DIO usually agrees with the
Hearing Officer’s recommendation.

       26 According to ATF’s Firearms License Hearings order (ATF Order 5374.1), after
reviewing a Hearing Officer’s recommendation, the DIO makes a final decision regarding
the matter and notifies the licensee of the decision in writing.


U.S. Department of Justice                                                           14
Office of the Inspector General
Evaluation and Inspections Division
      We also asked the third DIO why he pursued the revocation when
ATF had not scheduled a recall inspection after the warning conference
and why he did not wait for the recall inspection before deciding to
proceed with revocation. He told us that he had instructed his staff to
“go out a second time to conduct another inspection.” However, we
found no evidence demonstrating that he had instructed his staff to
conduct another inspection or that any further inspection had been
undertaken prior to the final revocation in October 2010.27

       Additionally, he told us that the DAD for Field Operations at the
time of the Hearing Officer’s decision gave him the go-ahead to revoke the
license.28 However, it was unclear whether he or anyone else at ATF had
informed the then-DAD for FO about the Acting DAD’s earlier
instructions to confer with the sitting DAD after receiving the Hearing
Officer’s report for possible alternative actions. Further, ATF did not
provide us any documentation regarding the final headquarters approval
for revocation and we did not locate any during our review.29




       27 ATF provided us with an inspection report on Guns & Ammo that was dated
from 2011. This inspection was unsigned, and ATF counsel stated that it was not used
as the basis for the Guns & Ammo revocation.

       28  The DAD for FO at the time of the Hearing Officer’s report was different than
the Acting DAD for FO in March 2010 who instructed the second and third DIO (an
Area Supervisor at the time) to consult with the sitting DAD about possible alternative
actions to revocation after receiving the Hearing Officer report.

       29  We did not interview the DAD for FO during this time period because he has
retired from ATF.


U.S. Department of Justice                                                            15
Office of the Inspector General
Evaluation and Inspections Division
                CONCLUSIONS AND RECOMMENDATIONS 



      We conclude that ATF did not comply with its administrative action
policy in handling this matter. The initial Acting DIO did not comply
with the administrative action policy in effect at the time, which required
consultation with ATF headquarters before proceeding with any
alternative recommendation for revocation. We also found no evidence
that a recall inspection was scheduled for Guns & Ammo as the
administrative action policy required.

       Further, we determined that the second Acting DIO’s actions in
reopening the Guns & Ammo case and issuing an initial notice of
revocation, while not ATF’s common practice, were within her discretion.
Similarly, we determined that it was uncommon, but within his
discretion, for the third DIO to issue the final revocation notice to
Guns & Ammo after the Hearing Officer’s recommendation to not revoke
the license.

        The rapid succession of ATF’s DIOs in the New Orleans Field
Division and a failure to comply with ATF’s administrative action policy
resulted in differing decisions by ATF officials concerning the exact same
set of facts regarding an FFL’s violations. The initial Acting DIO who
handled the matter determined that only a warning was appropriate, and
the FFL attended an ATF warning conference as a result of the DIO’s
decision. However, when a second Acting DIO (who had replaced the
initial Acting DIO) re-opened the case just 2 months later, she decided
that the same facts warranted revocation of the FFL’s license. When the
ATF Hearing Officer disagreed with the second Acting DIO and
recommended against revocation, a third DIO (who had replaced the
second Acting DIO) rejected the Hearing Officer’s recommendation and
ordered a revocation of the FFL’s license. In addition, it was unclear
whether the third DIO followed the Acting DAD for FO’s instructions in
March 2010 to confer with the sitting DAD for possible alternative
actions to revocation after receiving the Hearing Officer’s report.

      We are concerned that ATF failed to follow its own procedures in
certain aspects of this matter. We also are concerned about the failure
by ATF to fully document certain decisions in this matter, which at least
partially was the cause of the duplicative reviews that the New Orleans
Field Division undertook in this single administrative action.
Additionally, we have concerns about the adequacy of information
submitted by the field division to ATF headquarters.



U.S. Department of Justice                                              16
Office of the Inspector General
Evaluation and Inspections Division
       Further, we note that the failure to comply with ATF’s
administrative action policy at the outset led to an FFL first being told by
one DIO that he was receiving only a warning conference and then
subsequently being told that his license was being revoked by another
DIO. We were also troubled by the overall burden placed on Guns &
Ammo because of the duplicative administrative decisions during a single
administrative action. Similarly, we are concerned by the burden placed
on ATF during this administrative action because ATF invested
significant resources, diverting inspection staff from their other
priorities.30

       To help avoid the issues identified in our review, ATF should
ensure that all DIOs are informed and knowledgeable of the most recent
administrative action policy and the requirement that all
recommendations for administrative action, including recommendations
for a warning conference in lieu of revocation, must receive ATF
headquarters approval. In addition, ATF should ensure that field
divisions are appropriately trained on the handling of administrative
actions.

       In this case, we found that the SIR that was sent by the second
Acting DIO to ATF headquarters failed to mention that a warning
conference had recently been held with the FFL. To address this issue,
ATF could require DIOs to submit SIRs to headquarters that have been
certified or signed by the DIO or the Division Counsel to ensure that all
available case information and interactions with the FFL are noted on
SIRs. Additionally, ATF should consider instituting a series of spot
checks of active cases to ensure that field divisions remain in compliance
with current ATF policy and procedures.

      To help avoid the issues identified in our review, we recommend
that ATF:

   1. Ensure that all DIOs are informed and knowledgeable of the most
      recent administrative action policy and the requirements it
      contains.

   2. Ensure that field divisions are appropriately trained on the 

      handling of administrative actions. 




       30  The OIG report, Review of ATF’s Federal Firearms Licensee Inspection
Program, I-2013-005 (April 2013), reported that ATF was understaffed and unable to
meet its goal of conducting cyclical compliance inspections of FFLs.


U.S. Department of Justice                                                           17
Office of the Inspector General
Evaluation and Inspections Division
   3. Require DIOs to submit SIRs to headquarters that have been
      certified or signed by the DIO or the Division Counsel to ensure
      that all available case information and interactions with the FFL
      are noted on SIRs.

   4. Require DIOs to document and justify the reasons for their final
      decisions in instances where their decision differs from a Hearing
      Officer’s recommendation.

   5. Consider instituting a series of spot checks of active cases to
      ensure that field divisions remain in compliance with current ATF
      policy and procedures.




U.S. Department of Justice                                                18
Office of the Inspector General
Evaluation and Inspections Division
 APPENDIX I: SIR REPORT SENT BY THE SECOND ACTING D10 TO 

            ATF HEADQUARTERS ON MARCH 3, 2010 





          Ralph P :ool \V..:l n· r db,. G u ns :IIDd A lDlno a- 64-j j 71D

          C pmpljap"    His(Qn
          April3. 1998 Inspection
                  Violation al l? CFR 178. 124(t::) (Violations of~ A &. B farm 4473)
                  Vio lation of27 CFR 125(e)        (A&D violatiOD$)
                  Violation of21 CFR 178. 126,. (MuJti-hand. gun sales violation)
                  Violation nf27 CFR 178, 132 (Sai@ofposl-ban 100 roundmagazinl!')
                  Reomqnendation ofno f'urtbel- field IIctiOll.



          N IDTWoo "'OO2 19mrcrion lNpyrmhcr ')QQS t hrou g h Np\'anhu ')009)
                Failure to pmpn-ly record tlw; disposition of ~ in 2 10 ins~r:s (tbt; fiRanns were
                reported missing as a R:SUlt oftbe inspection)_
                The licensee tnnsMred. handguns 10 iDdividuals who resided in II state othH thaD the
                stille where the liaDsee's buslDess is located in 6 instances. 

                F aituu: to contact NICS prio.- to tnnsf~ a 6reum to a non_1icftlsee on 11 OCaWODS_ 

                On ten oftbose occas:ions, the li~ tranrlerred fireanns to police officers without 

                obtaining • CBtification lHter. 

                Failuu: to obb..iu • pwpelly c owpleted An: Fonn 4473 priOl" to tnwsfenWg fueauus 10 

                _licensed individ:uals. 'The IiCalSee tRDsf"erred fireanos for law tmfDTCeZDeDt agencies 

                tD individuals of law enfmcemellt agencies without proper-Letters from. the deputmn:lt 01" 

                completing an ATF FonD 4473 in 7 insWK:ft_ 


          Additional Information:

          TM-e werr: 24 traces to this dt:a1er in tbe last t\\oe1ve months. Oftbe 2 10 firearms reponed
          missing, 53 ..fthose weu acquired bytbe FFL between 2008 and 2009. 48 oftbose fueanns
          were acquiRd in 2007. The R'fIIajnd,., w ere acquiud between 1994 and 2006. with the majority
          in the most fettnt yean.




  Note: The Hearing Officer's report dated August 23,2010 ind icated that subsequent
  to the revocation hearing, Guns & Ammo provided documentation that it had found
  115 of the 210 (55 percent) missing firearms .

  Source: ATF'.




u.s. Departme nt of Justice                                                                                    19
Office of the Inspector General
Evaluation and inspections Division
           APPENDIX II: ATF RESPONSE TO DRAFT REPORT 




                                                              U.S. Department of Justice

                                                              Burea u of Alcohol. Tobacco.
                                                              Firearms and Explos ives

                                                              Office of tile Director


                                           SEP     9 1013

                                                                                LIT 13-212441 CC:MAA



            MEMORAN DUM TO:            Inspector Gencral

                             FROM:     Director. Bureau of Alcohol. Tobacco. Firearms and Explosives

                         SUBJECT:      Response to the Officc of the Inspector Gencral"s Draft
                                       Report on the Rcvicw of ATF's Actions in Revoking thc Federal
                                       Fireanns License of Guns and Ammo


          TIlt: Bureau of Alcohol. Tobacco. Firearms and Exp losivcs (A TF) has reviewed the Departll"""t
          of Justice, Office of the Inspector General's (OI G) draft report on the abovc-cited subjcct. We
          appreciate the opportunity to provide comments on the report and its rccommendations. A TF
          provides the following formal response to thc OIG's recommendations:

          Recomm endation #1: Ensure that all Director of Industry Ope rations (0[0) arc infomled and
          knowledgeable of the most recent administrmive action policy and the requ irements it contains.

          ATF Rf.'llponsc: We concur with this recommendation and have takcn steps to ensure that D[Os
          arc fu ll y infortned and knowledgeable of AT F's administrntive action policy. All mos received
          formal training on AT F's current administrative action policy during an assembled training
          session held in January 2013. ATF's administrative action policy has been further memorialized
          in ATF Order 5370.IB.

          Recommendation #2: Ensure that field divisions are appropriately trained on the handli ng of
          administrative actions.

          ATF Respo nse: We concur with this recommendation and hal'e providt'd formal training on the
          admini strative action policy. and now have Headquarters ol'ersight through the Monitorcd Case
          Program. The Monitored Case Program requires that detailed briefil1g P(lPCrs be prepared o n (III
          revocations and denial s for review by the Deputy Assistant Directo rs (DAD Industry
          Operations).

          Recnmml'ndation #3 : Require DIOs to submit Significant Incident Report (SI R) to
          Headquarte rs that have been certified o r signed by the DlO o r Di\'ision Counsel to ensure that all
          available case infommtion and interactio ns with the Federal fireann s licensee arc nOK'd on SIRs.




U.S. Department of Justice                                                                                        20
Office of the Inspector General
Evaluation and Inspections Division
                                                            -2-
          Inspector General

          ATf Response: Wc concur with this recommendation. As pan ofthc Monitored Case Program
          referenced above. DIOs submit an initial briefing papcr on the case. which has replaced the SIRs.
          in addition to monthly updates until final action is taken. For other administrative actions. such
          as alternatives 10 revocation. the DIOs submit briefing papers in a similar formal. '[be DADs
          (industry Operations) review the information submitted and. atler consultation with counsel.
          make a determination as \0 whether the aClion should progrcss as proposed.

          Recommendation #4: Require D10s [0 documctU and justify the reasons for their final
          decisions in instances where their dcdsion differs from a hearing officer's recommendation.

          ATF Response: We concur with this recommendation. ATF has revised its policy. and hearing
          officers now preparc a repon including a summary of factual findings. but they are nO! directed
          or expected to make rccommendations; however. DlOs are still required to justify the reasons for
          their final decisions. Again. the Monitored Case I>rogram is thc principal mode through which
          revocations. denials. and cenain other actions are tracked and documented.

          Recommendation #5: Consider instituting a series of spot checks of active cascs to ensure that
          ficld divisions remain in compliancc \.\lith current A TF policy and procedures.

          A TF Response: ATF concurs with this recommendation and has instituted spot checks of cases
          in N-Spect (an ATF case management system) for compliance with the applicable orders and
          policies. As a double check. ATF's Field Management Staff routinely runs queries for eascs in
          N-Spect that mcct the specified conditions for becoming a monitored case. When a case is found
          to require monitoring. Field Management Staff contacts the field division and requests an ini tial
          briefing paper. This information is then provided to the DADs (Industry Operations).

          Again. thank   YOil   for the opponunity to provide the above comments on the subject rcpon.




U.S. Department of Justice                                                                                     21
Office of the Inspector General
Evaluation and Inspections Division
           APPENDIX III: OIG ANALYSIS OF ATF RESPONSE 



      The Office of the Inspector General provided a draft of this report to
the Bureau of Alcohol, Tobacco, Firearms and Explosives for its
comment. ATF’s response is included in Appendix II to this report. The
OIG’s analysis of ATF’s response and the actions necessary to close the
recommendations are discussed below.

Recommendation 1: Ensure that all Directors of Industry Operations
(DIO) are informed and knowledgeable of the most recent administrative
action policy and the requirements it contains.

       Status: Resolved.

      ATF Response: ATF concurred with this recommendation and
stated that it has taken steps to ensure that DIOs are fully informed and
knowledgeable of ATF’s administrative action policy. ATF stated that all
DIOs received formal training on ATF’s current administrative action
policy during a training session held in January 2013 and the
administrative action policy has been memorialized in ATF Order
5370.1B.

       OIG Analysis: ATF’s actions are responsive to our
recommendation. Please provide documentation by January 6, 2014,
that includes the attendees and the agenda of the January 2013 training
session. Additionally, we request that ATF provide the training materials
presented and used during that training session since ATF’s Order
5370.1B was not certified until February 8, 2013.

Recommendation 2: Ensure that field divisions are appropriately
trained on the handling of administrative actions.

       Status: Resolved.

       ATF Response: ATF concurred with this recommendation and
stated that it has provided formal training on the administrative action
policy. ATF also stated that it now has headquarters oversight through
the Monitored Case Program, which requires detailed briefing papers be
prepared on all revocations and denials for review by the Deputy
Assistant Directors (DAD) for Industry Operations.

       OIG Analysis: ATF’s actions are responsive to our
recommendation. Please provide documentation by January 6, 2014,
that includes when the formal training was held and the training

U.S. Department of Justice                                               22
Office of the Inspector General
Evaluation and Inspections Division
materials and attendees if different than those requested in
Recommendation 1. Additionally, we request that ATF provide examples
of cases within the Monitored Case Program as well as sample briefing
papers.

Recommendation 3: Require DIOs to submit SIRs to headquarters that
have been certified or signed by the DIO or the Division Counsel to
ensure that all available case information and interactions with the FFL
are noted on SIRs.

       Status: Resolved.

       ATF Response: ATF concurred with this recommendation. ATF
stated that as part of the Monitored Case Program, DIOs submit initial
briefing papers, which have replaced SIRs, in addition to monthly
updates until a final action is taken in a case. ATF also stated that DIOs
submit briefing papers in a similar format for other administrative
actions. Additionally, the DADs for Industry Operations review the
information and, after consultation with counsel, make a determination
on whether the proposed action should proceed.

       OIG Analysis: ATF’s planned actions are responsive to our
recommendation. Please provide documentation by January 6, 2014, of
sample briefing papers for the different types of administrative actions.
Additionally, we request documentation from the Monitored Case
Program system that shows examples of DIO monthly updates and
verification that the DADs have reviewed the information the DIOs
submitted.

Recommendation 4: Require DIOs to document and justify the reasons
for their final decisions in instances where their decision differs from a
Hearing Officer’s recommendation.

        Status: Resolved.

       ATF Response: ATF concurred with this recommendation. ATF
stated that it revised its policy. ATF also stated that hearing officers are
not directed to make recommendations; rather they are required to
prepare a report containing a summary of factual findings. ATF also
stated that DIOs are still required to justify the reasons for their final
decisions.

      OIG Analysis: This change by ATF to its policy is unrelated to any
recommendation by the OIG, and the OIG was previously unaware of the
policy revision. Please provide a copy of the revised ATF policy, including

U.S. Department of Justice                                                23
Office of the Inspector General
Evaluation and Inspections Division
any statement of the reasons for the change, and any additional
guidance provided to hearing officers in conducting firearms license
hearings by January 6, 2014. Lastly, we request that ATF provide
examples from the new Monitored Case Program that shows DIO
documentation for the reason for their final decisions.

Recommendation 5: Consider instituting a series of spot checks of
active cases to ensure that field divisions remain in compliance with
current ATF policy and procedures.

       Status: Resolved.

       ATF Response: ATF concurred with this recommendation and
stated that it instituted spot checks of cases in ATF’s N-Spect database
for compliance with applicable orders and policies. ATF stated that ATF’s
Field Management Staff routinely runs queries for cases in N-Spect that
meet the specified conditions for becoming a monitored case. ATF also
stated that when a case is found to require monitoring, the Field
Management Staff requests an initial briefing paper from the field
division and provides it to the DADs for Industry Operations.

       OIG Analysis: ATF’s planned actions are responsive to our
recommendation. Please provide documentation by January 6, 2014,
that shows an example of the queries run and any briefing papers that
were requested from the field for cases that required monitoring.
Additionally, we request documentation that shows how many cases
have been tested for compliance, as a percentage of overall cases. We
also request that ATF provide information on how the monitored cases
were selected and the outcome in the selected cases.




U.S. Department of Justice                                              24
Office of the Inspector General
Evaluation and Inspections Division
